SCHUCKIT
& ASSOCIATES rc
ATTORNEYS AT LAW

4545 Northwestern Drive I Zionsville, IN 46077
OFFICE 317.363.2400 FAX 311.363.2257 I schuckitLAW.com

December 23, 2019

BY UPS OVERNIGHT MAIL
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543-0001
RE:

Richard C. Angino and Alice K. Angino vs. Trans Union, LLC
USSC Case No. 19-763

Dear Clerk of the United States Supreme Court,
We represent Respondent Trans Union, LLC ("Trans Union") in the above-referenced
matter. Pursuant to Supreme Court Rule 30.4, we seek a thirty (30) day extension of time in
which to file a brief in opposition to the Petition for a Writ of Certiorari. The Petition was filed
on December 9, 2019 and was placed on the Docket on December 16, 2019. Trans Union's brief
is due on or before January 15, 2020.
The undersigned, lead counsel in this matter, has filed an Application for Admission to
the United States Supreme Court and is currently awaiting admission so that we may appear on
behalf of Trans Union. An extension of time is requested to allow the Application for Admission
to be processed and for the undersigned to register for ECF filing.
Trans Union's counsel also has a number of other upcoming deadlines in this case. In
addition to the Petition for Writ of Certiorari to this Court, Petitioners also filed a Motion To
Stay All Proceedings in the Middle District of Pennsylvania in connection with the Court's Order
awarding attorneys' fees to Trans Union and Petitioners filed an Appeal of the award of
attorneys' fees to the Third Circuit. In light of these overlapping deadlines and considering the
upcoming year-end holidays, Trans Union and its counsel believe a short extension is warranted.
Accordingly, we respectfully request a thirty (30) day extension of time, until
February 14, 2020, to file Trans Union's brief in opposition to the Petition for a Writ of
Certiorari.

RECEIVED
DEC 2 7 2019
OFFICE OF THE CLERK
SUPREME COURT U.S.

Clerk of the Court
Supreme Court of the United States
December 23, 2019
Page 2
Thank you very much for your time and attention to the foregoing.

Respectfully submitted,
SCHUCKIT & ASSOCIATES, P.C.

Camille R. Nicodemus, Esq.

CRN/tjj
Richard C. Angino, Esq. (by regular mail)
cc:

